                                                  NATIONAL SCIENCE FOUNDATION 

                                                   OFFICE OF INSPECTOR GE:NERAL 

                                                     OFFICE OF INVESTIGATIONS 


                                            CLOSEOUT MEMORANDUM
                                                                                                              \




Case Number: AI0020014                                                                       Page 1 of 1



                    We received an allegation that a member of a peer review panel l posted a confidential
         NSF proposa1 2 on his university departmental group's website, where it was publicly available
         for approximately five years. In response to our inquiry, he explained that he had posted the
         proposal to make it available to his graduate student to assist in the review, and he was unaware
         that the proposal was publicly available;.he also stated that he had removed the proposal after he
         received our letter.

                   Publicly posting a confidential proposal violated NSF policy. We admonished the
         reviewer for violating the confidentiality of peer review, and urged him to follow appropriate
         procedures in the future. This case is closed.




                                                                                                                  !
                                                                                                                  I
                                                                                                                  I




NSF OIG Form 2 (11102)
